May 11, 2020
Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

No. 19-1203, Children’s Hospital Association of Texas et al. v.
Alex M. Azar II, et al.
Brief Amicus Curiae of New Civil Liberties Alliance
Supporting Petitioners
RULE 33.1(h) CERTIFICATE OF COMPLIANCE

Dear Mr. Harris:
As required by Supreme Court Rule 33.1(h), I certify that the Brief Amicus Curiae
of New Civil Liberties Alliance Supporting Petitioners in the above titled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief
contains 5,686 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
Executed on May 11, 2020.

Aditya Dynar
Counsel for Amicus Curiae

1225 19th Street NW Suite 450, Washington DC 20036 (202) 869-5210

www.NCLAlegal.org

